No. 19-635
IN THE SUPREME COURT OF THE UNITED STATES
DONALD J. TRUMP, President of the United States,
Petitioner,
v.
CYRUS R. VANCE, JR., in his official capacity as District Attorney of the County of
New York; MAZARS USA, LLP,
Respondents.
MOTION FOR LEAVE TO DISPENSE WITH
PREPARATION OF A JOINT APPENDIX

Pursuant to Rule 26.8 of the Rules of this Court, Petitioner respectfully moves
for leave to dispense with the requirement of a joint appendix in the above-captioned
case. The opinions of the United States Court of Appeals for the Second Circuit, the
Southern District of New York, and other materials related to the petition are
included in the appendix to the petition for a writ of certiorari. In Petitioner’s view,
no other portion of the record is material to the Court’s consideration of the question
presented.
Counsel for Respondents state that they consent to the requested relief.
For the foregoing reasons, the motion to dispense with the requirement of a
joint appendix should be granted.

January 21, 2020

Respectfully submitted,
/s/Jay Alan Sekulow
Jay Alan Sekulow
Counsel of Record
CONSTITUTIONAL LITIGATION
AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave, NW,
Ste. 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com
Counsel for President Donald J. Trump

2

